<html>
<title> - PREVENTING FRAUD AND ABUSE OF PPP AND EIDL: AN UPDATE WITH THE SBA OFFICE OF INSPECTOR GENERAL AND THE GOVERNMENT ACCOUNTABILITY OFFICE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
  PREVENTING FRAUD AND ABUSE OF PPP AND EIDL: AN UPDATE WITH THE SBA 
                  OFFICE OF INSPECTOR GENERAL AND THE 
                    GOVERNMENT ACCOUNTABILITY OFFICE

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON INVESTIGATIONS, OVERSIGHT, AND REGULATIONS

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                            OCTOBER 1, 2020

                               __________

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    


                               

            Small Business Committee Document Number 116-097
             Available via the GPO Website: www.govinfo.gov
             
             
             
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 41-471                  WASHINGTON : 2021             
             
             
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                         KWEISI MFUME, Maryland
                          JUDY CHU, California
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania
                       DAN BISHOP, North Carolina

                 Melissa Jung, Majority Staff Director
   Justin Pelletier, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                   
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Judy Chu....................................................     1
Hon. Ross Spano..................................................     3

                               WITNESSES

Mr. Hannibal ``Mike'' Ware, Inspector General, Office of the 
  Inspector General, United States Small Business Administration, 
  Washington, DC.................................................     5
Mr. William Shear, Director, Financial Markets and Community 
  Investment, United States Government Accountability Office, 
  Washington, DC.................................................     6

                                APPENDIX

Prepared Statements:
    Mr. Hannibal ``Mike'' Ware, Inspector General, Office of the 
      Inspector General, United States Small Business 
      Administration, Washington, DC.............................    23
    Mr. William Shear, Director, Financial Markets and Community 
      Investment, United States Government Accountability Office, 
      Washington, DC.............................................    28
Questions and Answers for the Record:
    Questions from Hon. Judy Chu to Mr. Hannibal ``Mike'' Ware 
      and Responses from Mr. Hannibal ``Mike'' Ware..............    45
    Questions from Hon. Judy Chu to Mr. William Shear and 
      Responses from Mr. William Shear...........................    48
Additional Material for the Record:
    NAFCU - National Association of Federally-Insured Credit 
      Unions.....................................................    51


  PREVENTING FRAUD AND ABUSE OF PPP AND EIDL: AN UPDATE WITH THE SBA 
  OFFICE OF INSPECTOR GENERAL AND THE GOVERNMENT ACCOUNTABILITY OFFICE

                              ----------                              


                       THURSDAY, OCTOBER 1, 2020

                  House of Representatives,
               Committee on Small Business,
                    Subcommittee on Investigations,
                                Oversight, and Regulations,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:01 a.m., via 
Webex, Rayburn House Office Building, Hon. Judy Chu [chairwoman 
of the Subcommittee] presiding.
    Present: Representatives Chu, Velazquez, Crow, Evans, 
Craig, Burchett, and Spano.
    Chairwoman CHU. Good morning. I call this hearing to order. 
I thank everybody for joining us today both virtually and in 
the hearing room. I would also like to thank the witnesses for 
their participation in this important and timely oversight 
hearing.
    Before we begin, I would like to take this opportunity to 
note some important requirements. Let me begin by saying that 
standing House and Committee rules and practice will continue 
to apply during hybrid proceedings. All members are reminded 
that they are expected adhere to these standing rules, 
including decorum. During the covered periods designated by the 
Speaker, the Committee will operate in accordance with House 
Resolution 965 and the subsequent guidance from the Rules 
Committee in a manner that respects the rights of all members 
to participate.
    House regulations require members to be visible through a 
video connection throughout the proceeding. So, please keep 
your cameras on. Also, please remember to remain muted until 
you are recognized to minimize background noise. If you must 
participate in another proceeding, please exit this one and log 
back in later.
    In the event a member encounters technical issues that 
prevent them from being recognized for their questioning, I 
will move to the next available member of the same party and I 
will recognize that member at the appropriate timeslot provided 
they have returned to the proceedings. For those members 
physically present in the Committee room today, we will also be 
following the health and safety guidelines issued by the 
attending physician. This includes social distancing and 
especially the use of masks. I urge members and staff to wear 
masks at all times while in the hearing room. I thank you in 
advance for your commitment to a safe environment for all here 
today.
    The COVID-19 pandemic has fundamentally altered the way 
American small businesses operate. Mandatory closures to 
protect the public health has significantly impacted their 
bottom line and visibility. To help small businesses weather 
the pandemic, Congress has passed a series of legislative 
packages. On March 6th, the Coronavirus Preparedness and 
Response Supplemental Appropriations Act became law and 
authorized SBA's Disaster Assistance Program to use available 
funds to issue economic injury disaster loans, or EIDL, to 
small businesses affected by the pandemic.
    On March 27th, the CARES Act was signed into law and 
created the Paycheck Protection Program, or PPP, and the 
Economic Injury Disaster Loan emergency advance. And SBA acted 
extremely quickly to implement these critical economic relief 
programs in order to deliver emergency funding to small 
business owners to keep them afloat.
    Over the past 6 months, more than 5.2 million PPP loans and 
approximately 3.5 million EIDL applications have been approved. 
That is an incredible amount of Federal assistance to America's 
small businesses. And I commend SBA's staff for creating the 
infrastructure to set up these programs so quickly. SBA was 
asked to undertake an enormously challenging task to 
implementing these programs in just a few days. And this 
Committee recognizes that some mistakes were expected. But the 
Congress and the American people must have confidence that the 
Administration is taking seriously their responsibility to 
mitigate fraud and ensure that this assistance is available to 
all eligible small businesses.
    Today, I hope to learn more from the SBA Inspector General 
and the Government Accountability Office about your findings 
and discuss ways to improve the delivery of SBA services to 
small businesses.
    On July 28th, the SBA Office of Inspector General released 
a report detailing potential incidents of fraud in the EIDL 
program. Initial investigations found tens of millions of 
dollars in duplicate loans and serious concerns about suspected 
fraud, including instances of accounts established with stolen 
identities and attempted award transfers to foreign accounts 
and deposits into personal accounts that have no evidence of 
business activity. And without swift action from SBA, these 
fraudulent activities will only become more widespread as 
Congress debates legislation to allocate more emergency 
assistance as the economic impact of the pandemic stretches on.
    I understand that SBA responded to this report by stating 
they have internal controls in place to address these types of 
fraud. Yet, recent reporting from the Project on Government 
Oversight, or POGO, cast doubt on how effective these internal 
controls are. The POGO report stated that anti-fraud policies 
were not fully implemented during EIDL processing. Software was 
not up to date and that SBA was struggling in mid-August to 
handle fraudulent applications. As the Chairwoman of the 
Investigations, Oversight, and Regulations Subcommittee, I am 
concerned with these reports and hope we can have a 
constructive discussion to address these findings today.
    In addition to the IG's report, the GAO released reports on 
August 31st and September 21st detailing concerns with SBA's 
oversight of the PPP and their ability to collect and interpret 
applicant data. The September report outlines extremely 
concerning gaps in the availability of demographic information 
and serious data reliability issues. The report also details 
potential fraud that the SBA referred to both the IG and the 
Department of Justice.
    More than 40 fraud-related cases are currently under 
investigation. Additionally, the report finds that SBA has 
failed to adequately prepare borrowers and lenders for the PPP 
forgiveness process. Demonstrating the seriousness of this 
problem, last week SBA announced that they had received 96,000 
forgiveness applications representing less than 2 percent of 
the loans that were disbursed, but they still have not 
processed a single one.
    Perhaps most troubling to me are reports that GAO has had 
difficulty even completing their audit objectives because SBA 
has not been forthcoming with documentation and access to data. 
Today, I would like to learn more about where SBA stands in 
implementing internal fraud controls, where the deficiencies 
lie, and what this Subcommittee can do to support SBA in their 
efforts to prevent fraud in both EIDL and PPP.
    Again, I want to thank the witnesses for participating both 
virtually and in-person. And I now yield to the Ranking Member 
Mr. Spano for his opening statement.
    Mr. SPANO. Thank you, Madam Chairwoman, and thank you, 
Chair Velazquez, for holding today's timely hearing to combat 
the economic impact of the coronavirus pandemic. This Committee 
has worked to create and optimize economic relief programs 
administered by the SBA. Through bipartisan cooperation and 
interagency negotiations, we created the Paycheck Protection 
Program, or PPP. We revitalized the pre-existing Economic 
Injury Disaster Loan Program, EIDL. I would like to take a 
moment to thank everyone for their work. Both programs have 
been a lifeline for our Nation's small businesses.
    As of August the 8th 2020, the date that the program 
reached its authorized deadline, the SBA had approved over 5.2 
million loans totaling more than $525 billion. The average loan 
size was around $100,000, and there were nearly 5,500 
participating lenders. Florida small businesses received nearly 
432,000 PPP loans for a total of more than 32 billion. And in 
my district, Florida's 15th District, 10,254 businesses have 
received $304 million loans in PPP funds. These loans have 
helped small business owners keep the lights on and keep their 
employees on the payroll.
    I have talked with many small business owners since the 
launch of the PPP, like Tom Powell, owner of Bolder Athletic 
Wear in Plant City, Florida, a manufacturer of women's athletic 
wear in my district. The loan was absolutely essential and 
crucial for Mr. Powell's business because it provided the 
critical capital necessary to retain his employees through the 
retail closures.
    In addition to creating the new PPP program, the CARES Act 
and its subsequent legislation expanded the pre-existing EIDL 
program administrated by the SBA's Disaster Loan program. And 
as of September the 13th 2020, the SBA has approved 3.5 million 
EIDL loans for approximately $190 billion, with an average loan 
size of $53,000. The EIDL advance grant, which is not required 
to be paid back, provided 6 million small businesses with $20 
billion in grants. Florida small businesses had approximately 
450,000 EIDL loans approved for nearly $20 billion.
    With only the basic statistics, Congress cannot fully 
measure the impact of these programs. That is for sure. We need 
to ensure that loans went to the intended businesses and that 
the loan proceeds were used properly. Fortunately, we have 
fantastic allies in the SBA's Office of Inspector General and 
the Government Accountability Office. Today, each office has 
sent a representative, and we are grateful for that, to 
represent their initial--or to present, I should say, their 
initial reviews of PPP and EIDL. We look forward to working 
together to make sure that taxpayer dollars are spent 
appropriately and to reduce waste, fraud, and abuse in these 
critical SBA relief programs.
    And with that, Madam Chair, I yield back.
    Chairwoman CHU. Thank you, Mr. Spano. The gentleman yields 
back. And if other Subcommittee members have an opening 
statement, we would ask that they be submitted for the record.
    I would like to just take a moment to explain how this 
hearing will proceed. Each witness will have 5 minutes to 
testify and each member will have 5 minutes for questions. 
Please ensure that your microphone is on when you begin 
speaking and that you return to mute when finished.
    I would now like to introduce our witnesses. Our first 
witness is the Honorable Hannibal ``Mike'' Ware, Inspector 
General of the SBA. Mr. Ware was sworn in as the Inspector 
General in May 2018 and has been an effective leader in his 
role and an asset to this Committee. He has 28 years of 
experience in the IG community, rooting out fraud, waste, and 
abuse in Federal programs. He has received numerous awards 
throughout his career, including several awards from the 
Counsel of the Inspectors General on Integrity and Efficiency 
in recognition for his significant portfolio of oversight work. 
Welcome, Mr. Ware.
    Mr. WARE. Thank you, Chairwoman Chu.
    Chairwoman CHU. Thank you. Our second witness is Mr. 
William Shear, Director of Financial Markets and Community 
Investment Team at the Government Accountability Office. He 
leads GAO's work community and economic development, small 
business, and SBA's COVID-19 response programs. Mr. Shear 
joined GAO more than 20 years ago. He has a master's degree in 
public policy and a Ph.D. in economics, both from the 
University of Chicago. He also served as an adjunct faculty 
member in the graduate program in city and regional planning in 
the University of Pennsylvania. Welcome, Mr. Shear.
    I would like to begin today's hearing by recognizing Mr. 
Ware for 5 minutes.

STATEMENTS OF HANNIBAL ``MIKE'' WARE, INSPECTOR GENERAL, OFFICE 
    OF THE INSPECTOR GENERAL, UNITED STATES SMALL BUSINESS 
ADMINISTRATION; WILLIAM SHEAR, DIRECTOR, FINANCIAL MARKETS AND 
 COMMUNITY INVESTMENT, UNITED STATES GOVERNMENT ACCOUNTABILITY 
                             OFFICE

              STATEMENT OF HANNIBAL ``MIKE'' WARE

    Mr. WARE. Chairwoman Chu, Ranking Member Spano and 
distinguished members of the Subcommittee, thank you for 
inviting me to speak with you today and for your continued 
support of my office. Believe me when I say that. The men and 
women of the Office of Inspector General have been working 
diligently to provide oversight of SBA's pandemic response. I 
am always proud to represent them publicly and to speak to you 
about our important work.
    I come before you today in the wake of a historic crisis 
posed by the COVID-19 pandemic and an ensuing unprecedented 
role for SBA to mitigate the damages to the Nation's economic 
vitality. SBA is managing over a trillion dollars in lending 
authority through PPP and the EIDL program. The speed and 
lowered guardrails relative to eligibility verification 
controls surrounding the PPP and the EIDL lending authorities 
brought with it substantially increased risk. As indicated in 
my written statement, we sought to inform SBA's efforts through 
three White Paper reports offering lessons learned and known 
risks to implementing PPP and EIDL based on prior oversight of 
the Recovery Act and other disasters. At the same time, we 
focused on preventing and deterring fraud by raising public 
awareness of fraud schemes and scams.
    At the outset, we initiated several reviews to include the 
PPP and EIDL reviews. During the course of these reviews, we 
had alarming findings causing us to issue a flash report on PPP 
in May and a management alert on EIDL in July. As oversight 
work carried on, we solidified our preliminary results and 
identified additional findings.
    On September 14th, we provided SBA leadership two draft 
reports. One containing our findings related to SBA's 
implementation of PPP and one containing findings of SBA's 
initial disaster assistance response to COVID-19. Our review 
standards require that we consider SBA's official comments 
prior to issuing these reports in final. We anticipate 
publishing these reports in mid-October, following the 30-day 
review and comment period by SBA's leaders. As such, my 
comments today regarding those findings must be considered 
preliminary so we can account for SBA's official comments 
before finalizing our reports.
    Nonetheless, our findings are significant and speak to the 
need for strengthening internal controls and for combatting 
potential fraud in the programs. Our reports speak to 
significant potential fraud in both PPP and EIDL. It is 
remarked as potential only because we have not reviewed each 
loan associated with the area of finding. However, the amount 
of dollars we cite as being subject to potential fraud are not 
based on projections. Rather, they are based on buckets of 
loans meeting criteria for a weak internal control environment 
where in many instances, we have active criminal investigations 
of fraud to substantiate the concern.
    Our office has received tens of thousands of complaints of 
wrongdoing on our hotline. Hundreds of investigations involving 
complaints of fraud have been initiated by my office and are 
ongoing with noteworthy results being reported daily by the 
United States Department of Justice, which has been a 
tremendous partner.
    Among these accomplishments was the first in the Nation 
charges against individuals fraudulently seeking PPP loans, 
which was announced on May 5th. More than 57 defendants have 
been charged with PPP fraud since the CARES Act passage as 
announced by the Department of Justice on September 10th. I 
want to assure SBA's lending partners and the Nation's small 
business owners that if they followed the guidelines and acted 
in good faith, we are not focused on your actions. The findings 
we report do not diminish the feat that the men and women of 
SBA and their lending partners accomplished. At one point in 
the crisis, it was reported that SBA performed as 14 years' 
worth of lending in just 14 days. However, our oversight work 
confirms SBA did not have sufficient controls to address risks 
and provide assurance that PPP loans and EIDL grants and loans 
were only being received by eligible recipients.
    We will continue our efforts to keep the administrator and 
this Congress currently and fully informed of our findings. We 
are not alone in this effort. Programs of this magnitude 
require a whole of government response. As a statutory member 
of the Council of the Inspectors General on Integrity and 
Efficiency Pandemic Response Accountability Committee, I am 
working with my inspector general colleagues to leverage the 
collective power of joint oversight efforts to increase 
transparency of SBA's pandemic response. Rest assured the men 
and women of my office understand that nothing short of the 
public's trust is at stake, as well as the vitality of the 
Nation's economy.
    Thank you for the opportunity to speak to you today. I am 
happy to answer any questions you may have of me.
    Chairwoman CHU. Thank you, Mr. Ware. Mr. Shear, you are now 
recognized for 5 minutes.

                   STATEMENT OF WILLIAM SHEAR

    Mr. SHEAR. Thank you. I am pleased to be here this morning 
to discuss our work on SBA's Paycheck Protection Program and 
Economic Injury Disaster Loan Program. Through these programs, 
SBA has made or guaranteed more than 14.5 million loans and 
grants providing about $729 billion to help small businesses 
adversely affected by COVID-19. In April 2020, SBA moved 
quickly to implement PPP. Given the immediate need for these 
loans, SBA worked to streamline the program so that lenders 
could begin distributing these funds as soon as possible. For 
example, lenders were permitted to rely on borrowers' self-
certifications for eligibility in use of loan proceeds. As a 
result, there was significant risk that some fraudulent or 
inflated applications were approved.
    In our June report, we recommended that SBA develop and 
implement plans to identify and respond to risk in PPP to 
ensure program integrity, achieve program effectiveness, and 
address potential fraud. According to Federal internal control 
standards and GAO's fraud risk framework, managers and 
executive branch agencies are responsible for managing fraud 
risk and implementing practices for mitigating those risks. 
When fraud risk can be identified and mitigated, fraud may be 
less likely to occur.
    In June 2020, we reported that reliance on applicants' 
self-certifications can leave a program vulnerable to 
exploitation by those who wish to circumvent eligibility 
requirements or pursue criminal activity. Since May 2020, the 
Department of Justice has publicly announced charges in more 
than 50 fraud-related cases associated with PPP funds. In April 
2020, SBA announced it would review all loans of more than $2 
million to confirm borrower eligibility. And SBA officials 
subsequently stated that they would review selected loans of 
less than $2 million to determine, for example, whether the 
borrower is entitled to loan forgiveness. However, SBA did not 
provide details on how it would conduct either of these 
reviews.
    As of September 2020, SBA reported that it was working with 
the Department of the Treasury and contractors to finalize the 
plans for the reviews. Because SBA had limited time to 
implement safeguards up front for loan approval, we believe 
that planning and oversight by SBA to address risk in the PPP 
program is crucial moving forward. We continue to be concerned 
about the potential for fraud in PPP and are continuing to 
conduct work on the program, including on internal controls and 
fraud risk management.
    SBA's efforts to expedite processing of economic injury 
disaster loans such as the reliance on self-certification, may 
have contributed to increased fraud risk in that program as 
well. In July 2020, as Mike Ware just stated, SBA's Office of 
Inspector General reported indicators of widespread potential 
fraud, including thousands of fraud complaints, and found 
deficiencies with SBA's internal controls. The Department of 
Justice in conjunction with other Federal agencies, has also 
taken actions to address potential fraud.
    We continue to be concerned about the potential for fraud 
in the EIDL program and are currently conducting work on the 
program, including on internal controls and fraud risk 
management. However, we have experienced delay in obtaining 
data and information requested from SBA, including access to 
application level EIDL data. We continue to take actions to 
obtain records needed to move forward with our work.
    Chairwoman Chu, Ranking Member Spano, and members of the 
Subcommittee, this concludes my statement. I would be pleased 
to respond to any questions you may have.
    Chairwoman CHU. Thank you, Mr. Shear. We will begin the 
questioning and I will begin by recognizing myself for 5 
minutes.
    Well, frankly, I am shocked by these findings. Our two main 
loan and grant programs are EIDL and PPP and in both programs, 
you have said that there are not the internal controls in 
existence to prevent fraud. So, I have many questions. First, I 
would like to start with Mike Ware, our Inspector General. And 
just to summarize, you said that there was fraud and also that 
there was a lack of internal controls. So, that for number one, 
there were $250 million worth of loans in the EIDL program, 
loans and grants in the EIDL program that were given despite 
the fact that they were clearly ineligible. That is, no 
business was eligible if they created their business after 
January 1st of this year. And yet, loans were given in the 
amount of 250 million, and grants, to these particular 
businesses.
    The second problem, the duplicate loans, I mean, there were 
no internal controls. And as a result, duplicate loans in the 
amount of 45.6 million were approved. And then, third, is the 
shocking social media fraud schemes in which they use social 
media to recruit applicants and then split the advanced money 
with the ringleaders. And, in fact, there was advertising of 
their ability to secure SBA money for clients to start 
businesses and then the sharing of this money.
    I am just astounded that these terrible acts took place 
when legitimate deserving businesses could have used that help. 
So, again, Inspector General Ware, in your report you stated 
that despite the internal controls that SBA has claimed are in 
place, fraud and the potential for fraud still exist in the 
Economic Injury Disaster Loan or the EIDL program. Can you 
identify the weak points in SBA's internal controls and how can 
SBA improve these existing controls in the time ahead?
    Mr. WARE. I certainly can. And I have identified those to 
SBA's leadership. So, the challenge that SBA always has, 
especially in their disaster lending program, is they have to 
balance, balance is a key word here, the need of speeding aid 
to people in desperate need while balancing against a proper 
control environment.
    In this instance, SBA's efforts to hurry capital to 
businesses were at the expense of controls that would have 
mitigated the risks of ineligible or fraudulent businesses 
obtaining PPP or EIDL loans. And that's why we have the 
problems that we have. The SBA said for themselves that to get 
funds to eligible entities quickly, they lowered the guardrails 
for the EIDL program specifically by removing or weakening of 
controls. And we have found for a fact through thousands of 
contacts from banks, tens of thousands of hotline complaints, 
our own data analytics, that those actions increased fraud risk 
significantly.
    Now, again, they have that balance to deal with. One part 
of the balancing act cannot be sacrificed for the other. And 
the type of things that we were finding in terms of controls 
lowered, of course, the self-certification part was one. But 
the contractor that they got had some built-in controls, but 
these things--the loan applications came in huge batches. So, 
that batch process and the speed to get it out allowed a lot of 
things to be missed. And then there were a lot of things, other 
controls, that were not in place. Such as what happens after 
the contractor says, okay, this is a legitimate bank account, 
but they allowed on the back end the applicant to change the 
bank account before the money was disbursed and there was no 
control in place to at least doublecheck or make sure that 
those were going to an eligible recipient.
    Now, the Agency in these meetings especially on EIDL, they 
have taken a lot of action already. And before the alert went 
out, we had been meeting with them because we thought it was 
critical that they knew this information and that they take 
action immediately. So, they shored up the control where it 
reverifies the bank account information every time it is 
changed. And if they didn't find issues or the loan application 
are only minor issues, then they would come to SBA in much 
smaller batches. And then they now have a team lead approving 
the batches and, I mean, they have done that.
    Let me see what else. They have done quite a bit. They 
found a logic issue with the system of control that they said 
they had in place, where it wasn't identifying all the 
duplicative information. And now they have addressed that 
issue.
    And now the big thing that they have put in place is that 
they have began automatically declining loan applications where 
the system identifies suspicious online activity. That wasn't 
happening at all. For example, related applications by the same 
bank accounts that are not the same person. Email addresses or 
phone numbers in somebody else's name. Weird email addresses, 
but like odd period location like mi.ke.wa.re, for example, 
along with the regular mike.ware.
    Now, that may force any legitimate applicants into the loan 
application reconsideration process to allow for supporting 
documentation before the applicant gets their loan approval.
    And, yes, so, they have pivoted pretty quickly on 
implementing the controls, I have to say. I don't know if the 
time is up or not. But fraudsters are going to do what 
fraudsters are going to do. And we have to continue to meet 
with the Agency when we find new schemes so that they can pivot 
quickly to mitigate a lot of the risks and to shore up their 
controls. And I think that they have been pretty responsive to 
that.
    Chairwoman CHU. Well, thank you for that thorough answer. 
And now, we have our Ranking Member Mr. Spano from Florida.
    Mr. SPANO. Thank you, Madam Chair. The CARES Act set up an 
intricate web of oversight mechanisms utilizing preexisting 
offices and creating new ones like the Pandemic Response 
Accountability Committee and the Office of the Special 
Inspector General for Pandemic Recovery. My question is how do 
your offices contribute to the larger pandemic oversight 
system? If you could answer that first, Mr. Shear?
    Mr. SHEAR. We have a major responsibility in the CARES Act. 
And it was actually articulated to each of the affected 
agencies in letters from the Comptroller General as far as our 
role in overseeing CARES Act programs broadly, and the need for 
us to report on a bimonthly--generally, a bimonthly basis to 
the Congress on a wide variety of issues.
    So, in contrast, I would just say that we focus on issues 
just as my colleague Mike Ware does dealing with fraud risk and 
things of that nature. But we deal with broader issues having 
to do with the integrity of the programs. So, we do look at 
responsiveness. We have issued reports in June, August, and 
September that deal with a wide range of CARES Act programs. 
And addressing them in a broad way and doing detailed audit 
work.
    Mr. SPANO. Mr. Ware, would you like to----
    Mr. WARE. Sure.
    Mr. SPANO.--respond to that?
    Mr. WARE. Yeah, I will. And this is actually like one of 
the questions that I was hoping that I would get mainly because 
of the prominent role that I play on the PRAC. I am the audit 
committee Chair on the PRAC. And we meet regularly like every 
single week. I am a statutory member of that committee. So, in 
our meetings, we work constantly to determine how we can help 
the community and how we could move the whole of government 
approach forward.
    If you have noticed the press releases concerning our 
investigative work, it is always joint. We have been working 
with the FBI, FDIC, Federal Reserve Board, HHS. I mean, this 
has been an all hands on deck approach to this oversight 
because no single one of our offices could handle this alone 
due to the magnitude of issues that we are finding.
    Regarding Mr. Miller's new shop, he is just standing that 
up. Him and I have had several one-on-one meetings particularly 
to pass on certain things to my office that he is not able to 
do at this time as he stands up his office. But we are all in 
communication and all working in a collaborative manner to 
ensure that the proper level of oversight is undertaken.
    Mr. SPANO. Do you feel like you need any additional 
guidance or clarity in terms of the roles that you are playing 
respectively?
    Mr. WARE. Sir, I do not. I believe that the act that stood 
up, the PRAC as we refer to it as, was pretty clear. I do 
believe that, well, you know what, in some teams we have 
discussed quicker access to data for the PRAC. But I am pretty 
sure that is something that the executive director----
    Mr. SPANO. Mr. Shear, would you like to respond to that?
    Mr. SHEAR. I think that the CARES Act--beyond just relying 
on our access authority and our role generally as Congress' 
watchdog--made it very clear that we had very expansive access 
authority. We also had very expansive responsibilities and we, 
led by our Comptroller General, Gene Dodaro, have gone on in 
that direction. We generally have had very good cooperation 
with the agencies that are included. So, it's an expansive role 
and it very clearly states what our role is and what our 
authorities are in terms of access to information.
    Mr. SPANO. Thank you. Madam Chair, I yield the remainder of 
my time.
    Chairwoman CHU. Thank you. The gentleman's time has 
expired, and the gentleman yields back. Now, the gentlelady 
from New York, our Chairwoman, Nadia Velazquez is recognized 
for 5 minutes.
    Ms. VELAZQUEZ. Thank you, Chairwoman Chu, and Mr. Spano, 
Ranking Member. This is a very important oversight 
responsibility that we have in this Committee regarding the 
CARES Act. So, Mr. Shear, we understand that you had issues and 
problems accessing EIDL data from SBA. Why do you think that 
happened?
    Mr. SHEAR. We and I always try to avoid trying to say what 
is going through people's minds, but what we can observe is a 
situation that is not a cooperative one. We have experienced a 
more cooperative environment with SBA dealing with other 
matters, but not when it comes to CARES Act. As you know that 
with PPP data----
    Ms. VELAZQUEZ. Would you----
    Mr. SHEAR. Yeah.
    Ms. VELAZQUEZ. Excuse me, sir.
    Mr. SHEAR. Sure.
    Ms. VELAZQUEZ. Would you characterize the actions out of 
the SBA as obstructionist?
    Mr. SHEAR. There was obstruction when we were trying to 
obtain loan-level PPP data. That went on for weeks. Getting 
access to people to talk about how they were implementing PPP, 
that went on for weeks. We still aren't getting a lot of 
cooperation from SBA. And yet, they accuse us of not giving 
them credit for what oversight they have in place when they 
provide very little information and don't respond to what we 
are asking. With EIDL, it is more extreme. We have asked, a 
very long time ago, for application level EIDL data.
    Ms. VELAZQUEZ. So, let me ask you. You know, it is clear 
that you have expand authority and the comptroller general has 
expand authority to demand and to have the access to the 
information, to have access to the data. And so, I, myself, 
have to call the administrator to ask her to expedite or to 
allow for the comptroller general to have the information that 
he was requesting.
    He personally called me and I believe that even called the 
Ranking Member. Can you imagine? It is our responsibility to 
protect taxpayers' money and to make sure that the program is 
implemented. And what we have seen is not only a case of fraud 
and abuse committed in the EIDL and both the PPP, but 
mismanagement probably the obstruction coming out of the SBA is 
because they knew that they didn't take or implement the kind 
of controls to prevent fraud and abuse.
    So, what can we do? What can Congress can do to help you do 
your job----
    Mr. SHEAR. As you----
    Ms. VELAZQUEZ.--going forward?
    Mr. SHEAR. As you and----
    Ms. VELAZQUEZ. Do you think that, for example, withholding 
agency funding that that will be an option?
    Mr. SHEAR. It is like this could be an option and I would 
hope it wouldn't come down to that. But if you go back to the 
issues that we had with just getting loan-level PPP data, I am 
sure you and Ranking Member Chabot and other members of 
Congress were surprised when Gene Dodaro, the Comptroller 
General, was making personal calls to you seeking your support. 
And we appreciate your support greatly. It is unfortunate it 
was necessary.
    With EIDL, it is not just data that we know should be 
readily available. But there are certain things like 
contracts--there is a tremendous delegation of authority to 
contractors--where we are just asking for contracts and that is 
very straightforward information to provide. So, we certainly 
hope it doesn't have to go up to people at higher levels. We 
are close to being at the stage where you might be hearing from 
the Comptroller General again and the Administrator at SBA 
might be hearing from the Comptroller General again. Our 
general counsel will be reaching out to the general counsel at 
SBA. It is an extreme situation.
    Ms. VELAZQUEZ. So, the Agency is not collecting demographic 
data that we have requested. And that was the intent and a 
sense of the Senate when we passed the legislation. It is 
clearly stated. And so, how difficult does that make your job 
and our job in determining whether or not we are making sure 
that the loans are going to deserving businesses? And 
particularly, minority and businesses in underserved 
communities?
    Mr. SHEAR. This is an issue we have dealt with involving 
numerous programs including now with PPP as far as demographic 
data. And the SBA takes a certain view toward the authority to 
collect data on race and ethnicity. And we have been dealing 
with that. So, the workaround, I think, becomes for SBA and for 
us is to geocode where we are not saying who are the borrowers, 
for example, are they minority owned small businesses? But at 
least what communities are they operating in. And that becomes 
the best we can do with that situation.
    Ms. VELAZQUEZ. Chairwoman, with your indulgence, I just 
need to ask one more question. And if you consider that 
necessary, please allot the same amount of time to the 
minority.
    There are 4,226 loans that went to businesses with over 500 
employees. In your work, have you been able to examine whether 
SBA has confirmed that these businesses employed the number of 
employees stated in their application?
    Mr. SHEAR. We are still at the stage and we have been 
waiting for a meeting that is now scheduled for next week just 
dealing with what we consider extreme data reliability issues, 
which affects our ability to do work that is associated with 
evaluating what Mike Ware was talking about, data analytics. It 
is affecting our ability to evaluate who the programs are 
serving. And we are trying to move forward on that, but we 
aren't at that stage yet. And part of that is the extended 
delays we get in dealing with SBA.
    Ms. VELAZQUEZ. Thank you. I yield back.
    Chairwoman CHU. Thank you. The gentlelady's time has 
expired, and the gentlelady yields back.
    Now, the gentleman from Tennessee, Mr. Burchett, is 
recognized for 5 minutes.
    Mr. BURCHETT. Thank you, Chairlady, and I appreciate the 
panel. I guess my first question would be what is the--been the 
economic impact of this? And I will open that up to anybody who 
would care to answer that positive or negative, overall.
    Mr. WARE. Will? Sorry, Will, you want to talk?
    Mr. SHEAR. Please, Mike, go ahead.
    Mr. WARE. Okay. By economic impact I think you are talking 
about the economic impact of the fraud?
    Mr. BURCHETT. No.
    Mr. WARE. Okay.
    Mr. BURCHETT. Of both sides of it. I would like to hear 
both sides of it.
    Mr. WARE. Oh, there is absolutely no doubt that this 
program, both programs reach out to people who are definitely 
in need. We know that for certain. But we also know for certain 
that there is no assurance that all that money went to the 
small businesses it was intended to go to. And this a fact. I 
do believe that there is a balance that could be struck in 
order to mitigate much of the risk of fraud and to shore up 
vulnerabilities that both of us have identified for SBA.
    But on the one side, I am telling you that SBA's employees 
have worked long and hard to get this money into the hands of 
people who badly needed it. Fraudsters do what fraudsters do. 
We have identified many of the schemes. We have worked with the 
Agency to mitigate much of that risk. So, I know that there is 
a large part--there is no doubt that there is a large part that 
have gone to ineligible and fraudulent recipients.
    Mr. BURCHETT. Since we have identified those, are we going 
to be--do you think it is in place? I am sorry to interrupt 
you, but--and I like what you said about fraudsters are going 
to fraud. I think that is a pretty accurate every time you do 
something, some new plan or some horrible tragedy occurs in our 
country, these dirtbags get out and take advantage of the 
situation. But is something in place to go after these people? 
And do you feel like we will go after them? Or are we just 
going to say, ah, let it go?
    Mr. WARE. No. So, like the Department of Justice, what is 
it called, the press conference that we had just a few weeks 
ago, we had it to note it to signify the 50th arrest made of 
these type of these fraudsters. There are hundreds of 
investigations already in process by my office. The FBI at our 
press conference stated that they had over 500 investigations 
initiated. And if you know how fraud works and fraud 
investigations work, that normally doesn't take place until 12 
to 18 months after these loans have gone out. The fact that we 
have moved so very quickly to catch people has been pretty 
remarkable. A great deal has to do with the Department of 
Justice and their partnership with us and other law enforcement 
entities. But we are on this and we are going to keep going.
    Mr. BURCHETT. Good, I appreciate that. What I am afraid is 
is that we move on to the next calamity in our country and we 
forget about the working folks who didn't get the money they 
should have because, again, as my favorite term, these dirtbags 
got the money and they shouldn't have. And we have got 
hardworking business folks, especially our smaller business in 
our rural and our inner city areas will not receive that 
funding. And thank you for your answer. Sir, I know you are 
wanting to say something too as well, please?
    Mr. SHEAR. I won't pull this out from the fraud issue, but 
I am just saying who are the intended beneficiaries of this 
program? And how is it serving these small businesses in the 
communities they operate in over time? It was clear that PPP is 
trying to both keep businesses in business and to allow 
businesses to keep payroll. Where EIDL is a little bit more of 
a focus on keeping businesses sustainable. So, they are 
slightly different approaches. They serve slightly different 
issues.
    But let me take PPP. We have serious concerns about data 
reliability having to do with jobs reported. But nonetheless, 
it is clear that PPP has, as you know, the federal government 
has spent a large amount of resources to support a large number 
of small businesses that employ a lot of people. And so, it has 
been a lifeline. So, we can observe that. And what also became 
clear is that where originally it was an 8-week period before 
forgiveness, it was recognized that the pandemic would continue 
for a longer period of time and Congress made legislative 
changes to expand that period.
    What we don't know yet in terms of economic impact is 
basically to what degree it has helped various segments of the 
economy. And it is a very difficult question to answer and it 
might not be possible until we have gone through much, if not 
all of loan forgiveness. But there are a lot of questions over 
the long haul where there are still uncertainties about what 
will happen with the pandemic. There are still a lot of 
questions of what the economic impact ultimately will be. But 
it has certainly been a lifeline for a very large number of 
small businesses.
    Mr. BURCHETT. Right, as in my district. Chairlady, I have 
gone over. But if you could issue my distaste of the fact that 
this is such an important issue and we have so much--I have to 
go to another committee, and we are marking up bills. But if 
you could tell them to prioritize these things. Both parties do 
it. This should be prioritized. We should not be scheduling 
other meetings. We go hours during the day where nothing is 
going on. Nothing, absolutely nothing. And they stack these 
dadgum committees on top of each other. And it is a disservice 
to you, as the Chairlady, and disrespectful to you and it is 
disrespectful to the dadgum taxpayers. And I am going to talk 
to my leadership, and I would hope that you would do the same 
because this a very important issue. And I apologize that I 
have to go to another committee. But I am very passionate about 
this issue.
    So, thank you, Ma'am, and always your courtesy to me and 
friendship.
    Ms. VELAZQUEZ. Thank you.
    Chairwoman CHU. Well, thank you. And the gentleman's time 
has expired. The gentleman yields back. And now, the gentleman 
from Pennsylvania, Mr. Evans, is recognized for 5 minutes.
    Mr. EVANS. Thank you, Madam Chairperson. Mr. Shear, SBA is 
relying on heavy contractors to process EIDL applications. What 
information has SBA provided to you of the contractual 
responsibility of contractors or subcontractors and why such 
important information for GAO works?
    Mr. SHEAR. This is one of the areas we had a meeting with 
SBA last Wednesday to discuss. So, just 8 days ago where there 
at least was a meeting to talk about what we are requesting 
from the Agency. So, that was a step forward. But there was no 
timeline put on providing material. And in both of these 
programs, but you asked with respect to EIDL, there is heavy 
reliance on contractors. So, we just asked for the contracts 
themselves. And that will lead to questions about what the 
contractors are doing, but it will get us started.
    In terms of information that should be readily available, 
we are still waiting for a response. And as I said to 
Chairwoman Velazquez, we are taking actions to push this 
forward just like we did with PPP and access to PPP data. But 
we are still seeking information from SBA on the contracts and 
what the contractors are doing.
    Mr. EVANS. Do you get any real sense of cooperation or not?
    Mr. SHEAR. No. The cooperation has been poor. And I don't 
like stating this, but we haven't had good cooperation in 
conducting this work. There was some improvement when the 
Agency then decided that they would provide us loan-level PPP 
data. But it is not the usual cooperation that we have received 
from SBA, and for that matter, other agencies with respect to 
both of these programs.
    Mr. EVANS. Mr. Ware, it is my understanding that SBA did 
not put in internal controls in place for PPP and EIDL on the 
front end of loans because of the speed in which the CARES Act 
money needed to get to small businesses. Many businesses in my 
district needed the money right away to stay afloat. Mr. Ware, 
if Congress authorized additional--and the Chairwomen have 
overall sort of asked you this, authorized additional funding, 
can you be specific what you recommend Congress take to ensure 
internal controls are placed at the beginning of the approval 
process of the new loans?
    Mr. WARE. Great, so, thanks for the question. I recommend 
that Congress put in place just the need to have the type of 
controls that at the very least, if an application falls into 
the high risk where we know there is fraud buckets, where we 
know there is rampant fraud buckets, it requires an automatic 
second look to verify. So, the lowering of the guardrails needs 
to come up particularly on those that fall in the high risk 
areas. And those that have multiple loans and the same type of 
NAICS code categories from the same IP addresses. Those that 
have random email generator accounts. Those where the bank 
accounts are changed after the approval process is over. Those 
that are in the name of, for example, like prominent 
politicians, prominent business leaders that we would all know 
their names and other clearly ineligible entities. And the type 
of controls that capture the ineligible entities. If the date 
does not meet this or if the TIN does not meet this date, it is 
automatically declined. Those upfront controls are necessary.
    Mr. EVANS. Thank you, Madam Chair. I yield back the 
balance.
    Chairwoman CHU. Thank you. The gentleman's time has 
expired. The gentleman yields back. And now the gentlelady from 
Minnesota, Ms. Craig, is recognized for 5 minutes.
    Ms. CRAIG. Thank you so much, Chairwoman Chu, and good 
morning, everyone. Chairwoman and Ranking Member Spano, I am so 
grateful we are having this hearing today. This issue is 
incredibly important to me, the issue of fraud and improper 
payments and government waste.
    Since the beginning of the COVID pandemic, I have worked 
hard. I know all of us have, to make sure that we are providing 
the businesses in our community the absolute best of resources 
and especially to those hard-hit small businesses through the 
PPP program. You know, these fraudulent activities that have 
now been incredibly well documented, it steals resources from 
taxpayers, and it steals resources from the small businesses 
who still need that help.
    Improper payments are exactly why I introduced the Payment 
Integrity Information Act, which I am proud that President 
Trump signed this into law earlier this year. It strengthens 
protections against improper payments in Federal programs. So, 
currently, there are a number of resources and tools available 
out there in the market developed to detect exactly the kind of 
fraudulent activity that seems to have gotten through the SBA. 
In fact, a division of Thomson Reuters located right in my 
congressional district has that kind of technology and system.
    So, in light of this, Mr. Ware, I have a first question for 
you. Do you feel at this stage that SBA has the necessary tools 
and resources and funding and oversight to be able to 
accelerate your efforts to prevent fraud and waste? And if not, 
what specifically do you need from our Subcommittee and the 
U.S. Congress to put you in a better position to manage your 
activity in this Agency?
    Mr. WARE. Thank you. I am being told that I got a call from 
the House that said that my camera is coming and going. I don't 
know why I am looking at myself. So, I don't know what is going 
on. So, I apologize.
    So, when you ask about the resources, are you asking about 
SBA OIG or are you asking about SBA proper the Agency?
    Ms. CRAIG. I am asking more generally do you and the Agency 
have what you need to be able to do better? Because, obviously, 
if there is technology out there that can help you detect and 
improve the accountability here. And I am asking is for an 
active effort to make sure that that happens. Because, sadly, 
this pandemic is not going away anytime soon. And I suspect 
unless we are able to effectively suppress this virus in a way 
that we clearly haven't been, we are going to have to continue 
to ask SBA to do some very difficult things that, obviously, we 
are not in a position to stop fraudulent activity at this 
moment.
    Mr. WARE. We are extremely fortunate that maybe what two 
years ago Congress gave us additional money to stand up our 
data analytics capability. And we are very fortunate that that 
investment was made because that group is doing excellent work 
in identifying fraud trends and quickly reporting out to the 
Agency. As far as the Agency, well, I am still speaking about 
my resources, right? We are coordinating with the PRAC and with 
other law enforcement entities to approach this is a more whole 
of government manner.
    As far as the Agency, like I said earlier, they have taken 
some steps. I will give you one of the steps in terms of their 
resources. Initially, in that first report that we issued where 
we were talking about all of these thousands of calls we were 
getting from the banks saying, hey, guys there is fraud here. 
We don't know what to do with this. We have stopped this. We 
have held this money. How do we give the money back to the 
government? This, that, and the other. We pulled everybody into 
a meeting and initially what I required was a secondary review 
that we were asking SBA to round up to make sure. Because 
sometimes there are reasons why things happen and it could be 
an eligible loan. They only had a couple of people assigned to 
doing that. They grew that to immediately 25 people to do that. 
And then I think it was 54, and now, I believe, that number is 
even higher.
    So, they have put the bodies necessary to have these 
secondary reviews. We have not reviewed how that has gone on 
yet. This is what has been reported to us. But in terms of 
resources, I can't speak to what SBA has to do things. I just 
know that they have moved things around to address and to 
mitigate some of this fraud risk.
    Ms. CRAIG. Thank you, Mr. Ware. It appears my time has 
expired. So, I will yield back to the Chairwoman.
    Chairwoman CHU. Thank you. The gentlelady's time has 
expired, and she yields back.
    And now we actually have time for a second round of 
questions if anybody desires to do so. I believe the topic is 
so important that I would like to go a second round. And so, I 
will start by recognizing myself for 5 minutes.
    Mr. Shear, I wanted to ask about the loan forgiveness 
process. You described in your September report that SBA has 
not provided clear guidance to lenders on the PPP loan 
forgiveness process and as a result, SBA may be using 
unreliable data to process loan forgiveness. And I would say 
that the description that you provide describes a situation 
that is at best fragmented. And that is the guidance comes on a 
rolling basis. They are not specific review requirements for 
lenders who are processing these applications, but as a result, 
what we have is a situation where SBA has announced it has 
received 96,000 forgiveness applications, but has yet to 
process and approve one single one.
    I mean, there are lots of businesses that are hanging on 
the edges of their seats wondering if they are going to get 
loan forgiveness. So, what specific steps should SBA take now 
to improve the quality of this data and what can be done to 
make sure that there is a loan forgiveness process that is 
functional?
    Mr. SHEAR. There has to be clear guidance and 
responsibilities of who is responsible for what. And the role 
of SBA's oversight of that process, you have banks that are 
interested in certain types of safe harbor and that has always 
been an issue. You have had reliance on borrower 
certifications. And again, we were very receptive to the fact 
that loans had to be gotten out very quickly, like immediately. 
In our first report we made a pretty broad recommendation that 
SBA needed certain controls in place and there has to be some 
clarity for the participants in the program rather than this 
rolling guidance.
    So, there has to be clearer processes and procedures that 
banks and borrowers can go on. And I say this especially with 
respect to the smallest businesses that might not have the most 
resources available for accounting and legal assistance. So, 
there just has to be greater clarity.
    And we need, again, we wish they would look at us as a 
asset in terms of trying to improve the integrity of this 
program. And that they would let us look like they let us do 
with other programs in our experience at SBA and actually be in 
a position to evaluate and to make recommendations for how 
those processes can be improved.
    Chairwoman CHU. Thank you, Mr. Shear. Now, I would like to 
ask about the first phase of PPP being dominated by large 
borrowers and even some publicly traded companies. SBA had 
issued guidance to emphasize the economic necessity 
requirements, but then this came after many larger companies, 
even publicly traded companies, had already been approved. So, 
first, how many publicly traded companies returned the money? 
And what is the dollar amount that this represents? And how 
would you suggest SBA prevent large companies from accessing a 
program designed for America's smallest companies?
    Mr. WARE. If that question is for me, I don't have the 
exact figures. I definitely could get back to you within a very 
short period of time on the exact figures. But in terms of what 
happened there was how it was initially set up in terms of the 
500 employees in a single place. And that allowed some of these 
larger companies to get in within the confines of the law. Now, 
so if you understand like the NAICS code that they use I 
believe it is 72. You are considered small if the businesses 
had fewer than 500 employees in one location. So, that 
happened. So, if there is a shoring up of that to ensure--I 
believe there was in the amended or the next act that came out. 
But that is how they can ensure that these companies don't get 
it. And like I said, I will get back to you with the exact 
amount of companies and the exact amount of dollars.
    Chairwoman CHU. My time has expired. But, yes, I am very, 
very interested in that information. I think so many others 
would be as well. So, please come back with that information.
    I yield back and now the Ranking Member from Florida, Mr. 
Spano, is recognized for 5 minutes.
    Mr. SPANO. Thank you, Madam Chair. What is the percentage 
of fraudulent loans approved in proportion to the 5.2 million 
loans approved?
    Mr. SHEAR. I will at least start with that. We don't know. 
Just realize that we make a very big distinction between fraud 
and the management of fraud risk and a lot of things we have 
talked about in this hearing have been about data analytics and 
other actions to look at fraud risk management. And so, we look 
at that. We are not a law enforcement agency. But one of the 
things that we emphasize is how do you prevent this? How do you 
set up the fraud risk framework along the lines that we have--
actually, we have had a report now since 2015 spelling it out 
that is widely used by agencies. How do you set it up? Because 
the cost of setting up prevention right out of the starting 
gate or even now when we are talking about what happens as we 
proceed with loan forgiveness and other aspects of the program. 
Prevention tends to be the most efficient thing to do.
    Mr. SPANO. I get that and I apologize for interjecting. I 
only have 5 minutes left.
    Mr. SHEAR. Okay, I'm sorry.
    Mr. SPANO. But here from the very beginning what has been 
articulated as the balance that has to be struck between, in 
this particular situation, getting money out quickly and 
preventing against fraud. They are both important. We obviously 
experienced personally how important that was when we were 
getting in our congressional offices dozens and dozens of calls 
from small businesses owners every day that said what in the 
world are you doing? I have got to know what is going on. I 
don't know whether to let my staff go. So, there was this 
inexorable push to the SBA to get this stuff done quickly, 
okay?
    So, and the last thing I want is fraud. Don't want fraud. 
But when we acknowledge that there are two competing interests 
in this scenario, to get it out quickly and prevent fraud. It 
seems to me that an important question we should ask and an 
answer that we should have, if both are important, is how many 
loans were fraudulent and how much of the over 525 billion 
loans was extended was fraudulent? That will help us determine 
how much, if any, additional measures should be taken to 
prevent fraud in the future. Does that make sense?
    Mr. SHEAR. Yes. Let me try to be brief on this. It will be 
a long time until we know how much fraud there was in the 
program and you can think of the adjudication of Department of 
Justice and other law enforcement agencies. But part of our 
emphasis has been--while we very much recognize that there was 
a push to get loans out, but with the passage of time, it 
becomes much more troubling when the fraud framework is not in 
place to try to mitigate the risk of fraud existing in the 
program----
    Mr. SPANO. Yeah.
    Mr. SHEAR.--and being practiced. And even more generally 
improper payments occurring because of the lack of oversight. 
At some point in time and we think that time has come and that 
is what we are looking for is what has SBA put in place? So, 
that is where our emphasis has been.
    Mr. SPANO. Understood. What do you, if you know, what is 
the statute of limitations for prosecution of fraud under the 
CARES Act? I will let you answer that first.
    Chairwoman CHU. No, well, if you want to make a question 
for the record, I don't know it. Maybe Mike Ware does. But I 
don't know, but if you make a question for the record, I would 
be glad to respond.
    Mr. SPANO. Mr. Ware, can you answer that question?
    Mr. WARE. Great. I don't--it appears that it didn't specify 
a particular amount of time in terms of it. Normally, we were 
looking at 7 to 10 years that we are dealing with on these 
fraud investigations. And these loans are going to perform in a 
portfolio for decades. So, I mean, there will be a time to go 
back and deal with this. But if I may, I don't know if we still 
have time for me to----
    Mr. SPANO. Yeah, I have 30 seconds.
    Mr. WARE.--okay, quickly. So, the issue with this is that 
in terms of the fraud framework that needs to be in place, we 
know for a fact that there is fraud mainly because of the 
thousands of calls in the hotline. Particularly having to do 
with identity theft where people are finding out for the very 
first time that their identities were stolen when they hear 
from SBA that their loan payments are going to be deferred, and 
they are like what loan payments? I have never had a loan from 
SBA. This is routine. We are getting this, dozens every single 
day. We are hearing some heartbreaking stories out there. And 
all these things fall into the same buckets where we are 
talking about this fraud environment.
    Mr. SPANO. Thank you, Mr. Ware. And I know my time is up. I 
would say it seems to me if the CARES Act didn't specify what 
the appropriate statue of limitations is that is something that 
we should follow-up on. I think that would give us the 
opportunity to be able to plan long term for what the window of 
time would be in which we need to go back after these folks.
    Thank you, Madam Chair. I yield back.
    Chairwoman CHU. Thank you. The gentleman's time has 
expired, and the gentleman yields back. And now, our Chairwoman 
from New York, Ms. Velazquez, is recognized for 5 minutes.
    Ms. VELAZQUEZ. Thank you very much. Mr. Ware, I would like 
to ask the same question that I asked Mr. Shear, but because of 
technical difficulties I was unable to ask the same question to 
you. And it is regarding the GAO's September report that shows 
that 4,226 loans went to businesses with over 500 employees. 
So, in your work, have you been able to examine whether or not 
SBA has confirmed that these businesses employed the number of 
employees stated in their application?
    Mr. WARE. Have we confirmed of this?
    Ms. VELAZQUEZ. Yes.
    Mr. WARE. Yes, our work has confirmed that some of that did 
take place. The thing is that I don't have the exact figures in 
front of me. I definitely could get you that though. And I 
already see that looking at the screen that the request for 
that information already popped up.
    Ms. VELAZQUEZ. So, several loans that were granted to 
companies with over 500 employees, notwithstanding the rules 
that they needed exemption for the lodging and food industry, 
does your office plan to examine how these companies were 
eligible to receive these loans?
    Mr. WARE. Certainly. I believe that is covered in our 
supplemental overview plan that we have publicly. And will be 
definitely looking into that and its eligibility. As a matter 
of fact, some of that will be reported publicly later in this 
month.
    Ms. VELAZQUEZ. Okay. And, Mr. Ware, in SBA's official 
response to your report, Administrator Carranza stated that, 
and I quote, ``Loan decisions are ultimately made by people, 
namely, Loan Officers.'' During your investigation or in the 
time since, have you reviewed whether there are adequate 
training protocols in place for SBA loan officers?
    Mr. WARE. Initially, no. Now, yes.
    Ms. VELAZQUEZ. Okay. Because money was provided. Funding 
was provided to the Agency to execute and implement the PPP and 
EIDL programs.
    Mr. Shear, in GAO's report in September, you stated that 
the Department of Justice has publicly announced charges in 
over 50 fraud-related cases related to the PPP. These cases 
were referred to the DOJ by SBA, but the Agency has yet to 
implement additional internal controls to mitigate risk. Can 
you expound on the risk SBA is incurring by not implementing 
internal controls for PPP? And what is your assessment as to 
why they, to this point, after we enacted the first trench of 
money, they have not been able to put in place a control 
mechanism?
    Mr. SHEAR. With the lack of information provided to us, we 
presume that controls are not in place. We would hope that, 
while I don't want to speak for the Inspector General, but I 
would hope that they could view us in a more constructive way 
in terms of helping to identify how you can create a better 
control environment for this.
    So, with the passage of time, again, right out of the gate, 
we thought that something very serious was needed with the 
limited upfront controls. And we just don't see it yet. We see 
references on pages 8 and 9 of my written statement as far as 
how they are going to use contractors, but we don't even have 
contracts now. And as auditors, we asked the question what is 
the Agency trying to hide? And there are just too many 
questions that go unanswered.
    Ms. VELAZQUEZ. Well, we just need to be on record, you 
know, basically pointing out the attitude of this 
Administration. You know, you could go out there and it just, 
yes, we do not deny that the Agency must do everything they can 
to put money into the hands of deserving businesses, but not at 
the expense of compromising the fact that they have to take 
every control or put in place every mechanism to make sure that 
we avoid mismanagement, fraud, and abuse. And it is not 
happening.
    Chairwoman, thank you, I yield back.
    Mr. WARE. Chairwoman, you are muted.
    Chairwoman CHU. Thank you. The gentlelady yields back. And 
now, the gentleman from Pennsylvania, Mr. Evans, is recognized 
for 5 minutes.
    Mr. EVANS. Thank you, Madam Chairperson. My issue is to Mr. 
Shear again. Many lenders in my home city of Philadelphia have 
expressed frustration with the piecemeal release of PPP rules. 
Despite SBA issuing rules to PPP forgiveness, there is still 
much confusion about the lender's role in the process. SBA is 
supposed to send the forgiveness amount to the lenders no later 
than 90 days from receipt of the lender's decision on loan 
forgiveness. That means for any application submitted on August 
the 10th, the first day SBA started accepting them, SBA has 
little more than over a month to send the funds to the lender. 
This is especially concerning because lenders already operate 
on a tight margin. Mr. Shear, what do you believe SBA will be 
able to do to meet this deadline? And if not able to meet the 
90-day deadline for distribution of forgiveness funds, will it 
dissuade lenders from participating in the PPP future?
    Mr. SHEAR. I will first start with saying that SBA might 
actually meet those deadlines. Our concern in meeting those 
deadlines is that we are looking for some type of control 
environment under which the forgiveness process will proceed. 
But, SBA could meet the deadlines. It is the question of 
whether it will protect the integrity of the program in how 
they go about it.
    So, now, if they don't meet those deadlines, then you are 
creating more uncertainty for the lenders. We have spent a lot 
of time talking to lenders and their trade groups and the 
concerns with the rolling guidance, I will call it, and just 
changes in the program and the whole question of how much 
lenders will be held harmless based on certifications by 
borrowers. The situation keeps changing. So, we are very 
cognizant of the strain that this has put on lenders and you 
could say they are being compensated for it, but in a sense, 
they are being compensated for something that wasn't clear to 
them when they started participating in the program. They may 
not have known what their responsibilities would be. So, I hope 
that is responsive to your question.
    Mr. EVANS. Madam Chair, thank you. I yield back the balance 
of my time.
    Chairwoman CHU. Thank you. The gentleman yields back. And 
now, I would like to make a closing statement.
    I would like to thank our witnesses for joining us both 
virtually and in person to share their important testimony 
today. The oversight work of the OIG and GAO is vital to 
ensuring that we root out instances of fraud and abuse and 
spend America's tax dollars wisely especially since our small 
businesses need so much help. Your work helps inform the 
Subcommittee on existing problems within the SBA's COVID-19 
programs and gives us insight into these issues as they unfold 
in real time.
    It is my hope that considering what we learned today that 
the SBA will fully cooperate with the GAO and the OIG to 
improve these programs for our Nation's small businesses. Our 
witnesses today showed that with proper input and cooperation, 
it can be done. I look forward to continuing our oversight 
efforts with all of you as partners.
    I ask unanimous consent that members have 5 legislative 
days to submit statements and supporting materials for the 
record. Without objection, so ordered.
    And if there is no further business before the Committee, 
we are adjourned.
    Mr. SHEAR. Thank you very much.
    [Whereupon, at 11:22 a.m., the Subcommittee was adjourned.]
    
                            A P P E N D I X
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                           



                                 <all>
</pre></body></html>
